                National Aeronautics and Space Administration

                    OFFICE OF INSPECTOR GENERAL




                  NASA’s Management of its
                Smartphones, Tablets, and Other
                       Mobile Devices




                             OFFICE OF AUDITS

IG-14-015                        AUDIT REPORT

(A-12-023-00)                 FEBRUARY 27, 2014
Final report released by:




Paul K. Martin
Inspector General




Acronyms

ACES         Agency Consolidated End-user Services
CIO          Chief Informatio Officer
CMDB         Configuration Management Database
ESRS         Enterprise Service Request System
HP           HP Enterprise Services
IT           Information Technology
NSSC         NASA Shared Services Center
ODIN         Outsourcing Desktop Initiative for NASA
OIG          Office of Inspector General


                                                       REPORT NO. IG-14-015
FEBRUARY 27, 2014




                                                                                             OVERVIEW

      NASA’S MANAGEMENT OF ITS SMARTPHONES, TABLETS, AND
                   OTHER MOBILE DEVICES
                                                                                               The Issue

  Mobile electronic devices, including smartphones and tablets, are key components of
  NASA’s information technology (IT) strategy to provide its employees and contractors
  flexibility in accessing Agency networks from anywhere at any time. Although mobile
  devices with computing capabilities offer greater workplace flexibility, they are also
  susceptible to security compromise. Mobile devices pose unique security threats because
  of their size, portability, constant wireless connection, physical sensors, and location
  services. Further, the diversity of available devices, operating systems, carrier-provided
  services, and applications present additional security challenges when mobile devices are
  used.

  In this audit we evaluated NASA’s management of smartphones, tablets, basic cell
  phones, and AirCards.1 Specifically, we assessed whether NASA had implemented
  controls to manage (1) the costs associated with Agency-issued mobile devices and
  (2) the security risks associated with personal smartphones and tablets connecting to
  NASA networks. Details of our audit’s scope and methodology can be found in
  Appendix A.

                                                                                                    Results

  Weaknesses in NASA’s mobile device management practices mean the Agency is unable
  to ensure that it is not paying for unused devices. Specifically, NASA lacks a complete
  and accurate inventory of Agency-issued mobile devices, which makes it difficult for the
  Agency to determine whether contractor charges are accurate. In addition, although
  NASA has taken some steps to mitigate security risks associated with personally owned
  mobile devices, more work remains.

  NASA Lacks Accurate Inventory of Mobile Devices. NASA does not have a complete
  and accurate inventory of Agency-issued smartphones, tablets, cell phones, and AirCards.
  This occurred because the information system NASA uses to order these devices from its
  IT contractor is not fully functional or integrated with the database the Agency uses to
  track IT assets. In 2013, HP Enterprise Services, NASA’s main IT contractor, reported
  that 2,280, or 14 percent, of Agency-issued mobile devices went unused for at least 7
  months. We were unable to determine the exact cost to NASA associated with the
  1
      An AirCard is a device that provides the user with access to wireless broadband cellular services.



REPORT NO. IG-14-015
                                                                                       OVERVIEW



     unused devices because the information needed to match individual devices with related
     service charges was often missing, incomplete, or inaccurate. However, we estimate that
     for the 7-month period – June through December 2013 – the unused devices cost NASA
     more than $679,000. Until NASA resolves its asset inventory and data quality issues and
     strengthens controls over Agency-issued mobile devices, Agency funds will continue to
     be wasted on unused devices.

     Despite Efforts to Address Security Vulnerabilities, More Work Remains. During
     the course of our audit, NASA took actions to address information security risks
     associated with personal mobile devices connecting to NASA’s e-mail systems.
     Specifically, in September 2013, NASA began enforcing security requirements on all
     smartphones and tablets that connect to NASA’s e-mail systems. However, NASA still
     needs to implement a technical tool to mitigate risks when those devices connect to other
     NASA networks apart from the e-mail systems.

     Management Action

     To improve management of mobile devices, we recommend that NASA’s Chief
     Information Officer (1) develop and maintain an accurate inventory of Agency-issued
     mobile devices and (2) implement a third-party tool that enables centralized management
     of smartphones and tablets that connect to NASA networks.

     In response to our draft report, NASA’s Chief Information Officer concurred with our
     findings and recommendations and proposed corrective actions to (1) improve the
     Configuration Management Database so that it will more accurately track NASA-issued
     mobile devices and (2) implement a Mobile Device Management capability to centrally
     manage Agency Consolidated End-user Services-supplied, NASA-supplied, and
     personally owned mobile devices that connect to NASA networks. We consider the
     proposed actions to be responsive and will close the recommendations upon completion
     and verification of those actions. Management’s response is reprinted in Appendix B.




ii                                                                         REPORT NO. IG-14-015
FEBRUARY 27, 2014




                                                         CONTENTS

  INTRODUCTION
      Background _________________________________________ 1
      Objectives __________________________________________ 4

  RESULTS
      NASA Needs to Improve Management of Mobile Devices
      to Save Money and Mitigate Security Risks _________________ 5

  APPENDIX A
      Scope and Methodology _______________________________ 11
      Review of Internal Controls ____________________________ 12
      Prior Coverage ______________________________________ 12

  APPENDIX B
      Management Comments ______________________________ 14

  APPENDIX C
      Report Distribution ___________________________________ 16




REPORT NO. IG-14-015
February 27, 2014




                                                                            INTRODUCTION


Background
  Mobile electronic devices, including smartphones and tablets, are key components of
  NASA’s strategy to provide its employees flexibility in accessing Agency networks and
  information from anywhere at any time. Mobile computing technology enables NASA’s
  employees and contractors to connect to the Agency’s information technology (IT)
  infrastructure through wireless or wired networks. Beginning in July 2007, NASA began
  requiring that mobile devices and services be purchased through an Agency-wide
  contract known as the Outsourcing Desktop Initiative for NASA (ODIN). The ODIN
  contract was followed by the Agency Consolidated End User Services (ACES) contract
  with HP Enterprise Services (HP). NASA acquires most of the mobile devices and
  services it provides to employees through the ACES contract. In addition to
  Agency-owned devices, many NASA employees and contractors access NASA networks
  using personally owned mobile devices.

  In January 2014, the Office of Inspector General (OIG) issued a memorandum to NASA
  management identifying concerns regarding NASA’s ACES contract with HP.2 We found
  that the ACES contract fell short of Agency expectations for several reasons, including a
  lack of technical readiness by NASA for an Agency-wide IT delivery model, unclear
  contract requirements, and the failure of HP to properly deliver on important aspects of
  the contact.

  Further, in a June 2013 OIG report, we highlighted a series of challenges stemming from
  ineffective IT governance and shortcomings in NASA’s IT security policies.3 We
  reported that the decentralized nature of NASA’s operations and its longstanding culture
  of autonomy hinder the Agency’s ability to implement effective IT governance and that
  NASA’s IT governance model weakens accountability and does not ensure that IT assets
  across the Agency are cost effectively managed and secure.

  In addition, in a December 2012 OIG report, we found that NASA’s Chief Information
  Officer could not fully account for the Agency’s laptop computers to ensure they were
  encrypted and complied with applicable IT security policies.4 We reported that NASA’s
  efforts to install full-disk encryption on all Agency laptop computers had been repeatedly
  delayed due to slow implementation of the ACES contract, the highly decentralized
  nature of IT management at NASA, and a lack of sufficient internal controls. Moreover,

  2
      NASA OIG, “Review of NASA’s Agency Consolidated End-User Services Contract (IG-14-013,
      January 30, 2014).
  3
      NASA OIG, “NASA’s Information Technology Governance” (IG-13-015, June 5, 2013).
  4
      NASA OIG, “NASA’s Efforts to Encrypt its Laptop Computers” (Memorandum to the Administrator,
      December 17, 2012).

REPORT NO. IG-14-015                                                                                 1
                                                                                           INTRODUCTION



    NASA had no reliable accounting of the number of laptops in its possession and therefore
    was not able to ensure that encryption software was installed on 100 percent of required
    machines by its self-imposed deadline.

    In this report, we focus on NASA’s management of smartphones, tablets, and associated
    services.

    Mobile Devices and Services at NASA. Smartphones and tablets used by NASA
    employees and contractors fall into one of three general categories based on ownership
    and management:

             ACES-provided devices. NASA acquires these devices and services from HP,
              paying the company monthly for the devices and associated services (e.g., data
              charges). As of June 2013, HP managed approximately 11,300 smartphones and
              tablets for NASA employees and contractors.
             NASA-owned devices. NASA purchases these devices and obtains associated data
              services outside of the ACES contract. As of June 2013, NASA owned and
              managed more than 1,500 smartphones and tablets.
             Personal devices. The individual user owns and pays for the device and
              associated services with personal funds. As of June 2013, NASA employees and
              contractors were accessing Agency internal network systems using more than
              13,000 personal smartphones and tablets. The use of personal smartphones and
              tablets to access NASA information is sometimes referred to as “BYOD” or
              “Bring Your Own Device.”

    In addition to smartphones and tablets, we estimated that NASA furnishes its employees
    and contractors with more than 5,400 basic cell phones and AirCards.

    ACES Invoices. The ACES contract requires HP to submit invoices to the NASA
    Shared Services Center (NSSC) on the 15 of each month for the previous 30 days of
    service.5 The NSSC administers the ACES contract and pays for ACES charges using
    the following model:

             Base services for all users are charged to Office of the Chief Information Officer
              accounts. Base services include e-mail, user authentication, encryption, loaner
              pool management, IT security such as patch management and malware protection,
              emergency management, and software licenses.
             Fees for individual smartphones, tablets, cell phones, and AirCards are charged to
              the Center where the user is employed or a resident.


    5
        The NASA Shared Services Center is a partnership between NASA and Computer Sciences Corporation.
        The NASA Shared Services Center consolidated selected activities from ten NASA Centers including
        financial management, human resources, IT, procurement, and Agency business support.




2                                                                                 REPORT NO. IG-14-015
INTRODUCTION



  Information Security Risks Associated with Smartphones and Tablets. One of the
  most difficult aspects of managing mobile devices is addressing associated information
  security risks. Because of their portability and size, smartphones and tablets are more
  likely to be lost or stolen than laptops. For example, in 2011, NASA reported 146
  smartphones and tablets lost or stolen compared to 45 laptops. In 2012, the numbers
  were 213 and 62, respectively. Moreover, smartphones are capable of storing relatively
  large amounts of data – in the case of ACES smartphones and tablets up to 64 gigabytes.
  Finally, the diversity of mobile devices and associated operating systems available also
  present security challenges for NASA IT officials.

  NASA employees and contractors use a variety of operating systems, including:

           BlackBerry. BlackBerry is a proprietary system developed by Research in
            Motion. NASA has been providing BlackBerry smartphones to employees since
            2003.
           iOS. iOS is a proprietary system developed by Apple for its iPhones and iPads.
            NASA has been providing iPhones since 2009, and both the iPhones and iPads are
            currently available to NASA employees and contractors through the ACES
            contract.
           Android. Google led the development of Android, an operating system for mobile
            devices based on the Linux operating system. Android is an “open” operating
            system, which means that its software code is publicly available and can be
            tailored to the needs of individual devices and telecommunications carriers.
            Accordingly, many different versions of the software are in use. Although
            Android devices are not available under the ACES contract, NASA owns some of
            these devices and some employees and contractors access NASA networks with
            personal devices that use the Android system.

  In May 2013, the Federal Chief Information Officer Council (CIO Council) identified the
  top security threats posed by smartphones and tablets and suggested mitigation
  techniques, as shown in Table 1.6




  6
      The Federal CIO Council, “Government Mobile and Wireless Security Baseline,” May 23, 2013.



REPORT NO. IG-14-015                                                                               3
                                                                                               INTRODUCTION



            Table 1. Common Threats and Mitigations for Smartphones and Tablets
                   Common Threats                                      Mitigations
           insecure configuration                    device management
           unauthorized access                       password to unlock device
           virus or malware                          user training
           loss of sensitive data                    encryption of data at rest
           device loss or theft                      remote wipe of Agency applications and data
    Source: The Federal CIO Council.

    According to the Federal CIO Council, the most critical element to ensuring the security
    of mobile devices is effective device management, which includes configuration of the
    operating systems, applications, and software patches.7 Many vendors offer third-party
    tools to manage the major classes of mobile devices. Using these tools, NASA can
    monitor for out of date or unsecure operating systems and applications.

Objectives
    Given NASA’s expanding use of smartphones, tablets, and other mobile computing
    technologies, we evaluated the Agency’s management of these devices to assess (1) the
    costs associated with ACES-provided devices and associated mobile services and (2) the
    security risks associated with these devices connecting to NASA’s networks. See
    Appendix A for details of the audit’s scope and methodology, our review of internal
    controls, and a list of prior coverage.




    7
        The Federal CIO Council and Department of Homeland Security, “Mobile Security Reference
        Architecture,” May 23, 2013, defines mobile device management as “any process or tool intended to
        manage applications, data, and configuration settings on mobile devices.”



4                                                                                      REPORT NO. IG-14-015
RESULTS




                           NASA NEEDS TO IMPROVE MANAGEMENT OF
                              MOBILE DEVICES TO SAVE MONEY AND
                                        MITIGATE SECURITY RISKS

          NASA does not have a complete and accurate inventory of Agency-issued
          smartphones, tablets, cell phones, and AirCards. This occurred because the
          information system NASA uses to order IT equipment from HP, its main IT
          contractor, is not fully functional or integrated with the database it uses to track
          Agency IT assets. In 2013, HP reported that 2,280, or 14 percent, of Agency-issued
          mobile devices went unused for at least 7 months. We were unable to determine the
          exact amount NASA paid for the unused devices because the information needed to
          match individual devices with related billings was often missing, incomplete, or
          inaccurate. However, we estimated that from June through December 2013 these
          unused devices cost NASA more than $679,000. Until NASA resolves its asset
          inventory and data quality issues and strengthens controls over Agency-issued
          mobile devices, the Agency will continue to waste funds on unused devices. We
          also found that while NASA has taken steps to mitigate security risks associated with
          personally owned smartphones and tablets accessing its e-mail systems, more work
          is required to reduce risks when those devices access other NASA networks.

NASA’s Inability to Account for and Track Mobile Devices Means
 It Cannot Ensure Billings Are Accurate
  Neither NASA nor HP has an accurate inventory of Agency-issued mobile devices. NASA
  officials admitted they had no authoritative database of these devices and were not confident
  that HP could accurately account for the full inventory of mobile devices it provides to the
  Agency. This is similar to a finding identified in our December 2012 special review where
  we determined that NASA did not have a full inventory of Agency-issued laptops. The lack
  of a complete inventory adversely affects NASA’s ability to verify the accuracy and
  completeness of ACES invoices and leaves the Agency susceptible to paying erroneous or
  excessive charges.

  Lack of a Comprehensive Inventory of ACES Mobile Devices. The Configuration
  Management Database (CMDB) NASA uses to identify, maintain, track, and report
  ACES managed IT equipment is not accurate and complete. Moreover, the system
  NASA uses to order mobile devices – the Enterprise Service Request System (ESRS) – is
  not integrated with the CMDB. Consequently, NASA has no automated, fully functional
  mechanism for tracking equipment orders and receipts, and data regarding new orders
  made through the ESRS must be manually uploaded into the CMDB. On the billing side,
  HP provides NASA an itemized monthly invoice on the 15 of each month containing
  information for each ACES services, including the user name, location, associated asset



REPORT NO. IG-14-015                                                                              5
                                                                                                                RESULTS



    tag, and itemized charge for each type of service. HP also provides a monthly Agency
    Cellular Seat Detail Report of the minutes and data used by each device.

    If ESRS and CMDB were integrated, the CMDB would automatically populate with
    complete data concerning the mobile devices for which the Agency is paying. Instead,
    since the start of the ACES contract in November 2011, NASA officials have been
    manually populating the CMDB with data from Excel spreadsheets supplied by HP.
    Compounding the problem are questions about the accuracy of the data provided by HP.
    For example, in July 2013, NASA “scrubbed” the CMDB database and removed almost
    40,000 erroneous records. During our review, we could not accurately reconcile data
    from the Agency Cellular Seat Detail Reports to the HP monthly billing invoices due to
    missing inventory control numbers.

    Thousands of ACES Mobile Devices Unused. We estimate that from June through
    December 2013, NASA had 2,280 mobile devices that were not used and cost more than
    $679,000 over the 7-month period, of which 47% of these costs can be attributed to
    smartphones. We could not determine the actual amount paid by NASA for these devices
    because information needed to link individual devices with monthly billing statements
    was missing, incomplete, or inaccurate. Mobile device accounts in the Agency Cellular
    Seat Detail Reports did not have unique identifiers needed to match devices with
    corresponding invoices. Accordingly, we estimated the amount of potential mischarges
    by multiplying the average monthly cost for each type of device by the number of unused
    devices and applying that amount over the months the devices went unused. Because our
    estimate did not include charges for optional services such as international data plans, the
    $679,000 estimate may actually understate the amount NASA paid for these unused
    mobile devices. Table 2 shows the type, number, and estimated costs associated with
    unused mobile devices at NASA for the period June to December 2013.

                     Table 2. Estimated Costs for Unused Mobile Devices or Services
                           Unused for 7 Months              Estimated         Unused (as a Percentage
          Mobile             (June through                  Total for          of Estimated Total for
           Device            December 2013                  June 2013                June 2013)                Costa
        AirCard                             990                  2,950                            34%
        Cell Phones                         470                  2,430                            19%
        Smartphones                         760                 10,450                              7%
        Tablets                              60                    870                              7%
        Total                             2,280                 16,700                            14%        $679,980
    a
        The individual cost for each type of device is proprietary information and has been redacted.
    Source: OIG analysis of Agency Cellular Detail Reports for June through December 2013.




6                                                                                                   REPORT NO. IG-14-015
RESULTS



  NASA officials are working to better integrate the CMDB and ESRS systems and
  recently formed a task force to address implementation issues and identify authoritative
  sources of data. Once the database becomes more reliable, the NSSC contractor
  (Computer Sciences Corporation) will use the system to validate the accuracy of invoices
  submitted by HP. Although NASA has taken interim action to review invoices and has
  rejected those found to have errors, the Agency still primarily relies on the individual
  organizations at the Centers to identify appropriate charges for its mobile devices.

  Moreover, included in NASA’s ACES contract modification dated October 24, 2013, is
  an agreement between HP and NASA that states “[HP] will forgo billing for any
  unordered Mobility Lines and unused Mobility Lines for the period November 1, 2011
  through May 2013…” While this modification indicates that NASA is not required to
  pay for unused and unordered lines, we have serious doubts regarding how well NASA or
  HP is able to identify the population of unused devices going back 2 years or into the
  future without an accurate inventory.

NASA Addresses Some Security Vulnerabilities But More Remain
  At the time we initiated this audit, we found that NASA had not addressed serious
  information security risks associated with employees and contractors using personal
  smartphones and tablets to access NASA networks, including the potential for
  unauthorized access if these devices were lost or stolen. In September 2013, NASA took
  corrective actions and now enforces security requirements on all smartphones and tablets
  that connect to NASA’s e-mail systems, whether the devices are ACES-provided,
  NASA-owned, or personal equipment. Specifically, NASA requires all mobile devices
  that connect to its e-mail systems to have a password, automatic lock after a period of
  inactivity, native encryption, and be configured to automatically delete all data after 10
  failed password attempts.8

  Through these new requirements, NASA has mitigated several major security risks;
  however, more work remains to mitigate risks associated with mobile devices connecting
  to other NASA networks, such as local area networks at each of the Centers.

  Security Requirements for Access to NASA E-mail Systems. Prior to September
  2013, NASA enforced security controls – including minimum hardware requirements, a
  password requirement of at least four characters, automatic lock after a period of
  inactivity, use of native encryption from the device, and automatic deletion of all data on
  the device after 10 failed password attempts – on Agency-issued equipment. However,
  similar controls were not in place for all personal devices that connected to NASA
  networks.

  In November 2012, NASA established the Mobile Security Focus Group to develop
  security requirements to support the Agency’s plan to “securely and seamlessly access
  8
      Native encryption refers to the data at rest encryption provided by the mobile device itself and is
      different from the Entrust product that NASA uses to encrypt documents and e-mails.



REPORT NO. IG-14-015                                                                                        7
                                                                                                          RESULTS



    and share any information, anyplace, anytime, using any device.”9 In June 2013, the
    Mobile Security Focus Group identified an immediate need to enforce security
    requirements on personal devices accessing NASA’s e-mail systems. Consequently, as
    of September 2013, all devices that connect to NASA’s e-mail systems were required to
    have a password of at least four characters, automatically lock after a period of inactivity,
    use encryption, and automatically delete all data on the device after 10 failed password
    attempts.10, 11 We believe this is a positive step toward better management of the
    information security risks associated with mobile devices accessing NASA’s e-mail
    systems.

    Remaining Work to Mitigate Security Risks. Nevertheless, more work remains to
    mitigate risks associated with mobile devices that connect to NASA’s non-e-mail systems
    and networks, such as the wireless local area networks at the NASA Centers. In April
    2013, NASA’s Office of the Chief Information Officer established the Mobile Device
    Management Integrated Product Team to identify requirements for a third-party tool that
    would enable the Agency to perform centralized mobile device management. Such a tool
    would provide configuration management of mobile devices that connect to NASA’s
    wireless network and help NASA manage risks from devices that would otherwise have
    unsecure configuration.

    The National Institute of Standards and Technology identified third-party tools as a
    technical solution for controlling the use of both organization-furnished and personal
    mobile devices. Without these tools, NASA would need to manage mobile devices
    individually and manually, which poses two major security problems.

           1. The security controls provided by an individual’s mobile device often lack the
              rigor of those provided by a centralized organization. For example, a personal
              mobile device may only support a short passcode for authentication and may not
              support strong data encryption.
           2. It will require significantly more effort or may not be possible to manage the
              security of the device when it is not physically present within the enterprise.




    9
         The IT Management Board consists of the Agency CIO, the Deputy and Associate CIOs, the Center
         CIOs, and the Mission Directorate CIOs and makes decisions regarding the Agency’s IT infrastructure
         strategy, operations, and budget. The IT Management Board is a forum for oversight and evaluation of
         Agency IT operations and maintenance and for reviewing and approving high-level requirements of
         critical infrastructure initiatives. The NASA CIO serves as the decision authority for the IT Management
         Board.
    10
         The Mobile Security Focus Group was led by the IT Security Division of NASA’s Office of the Chief
         Information Officer and included members from Ames Research Center, Kennedy Space Center, and
         Marshall Space Flight Center.
    11
         The Memorandum from the NASA Chief Information Officer, “Minimum Security Requirements for
         Personal Mobile Devices,” August 27, 2013, provides a list of security requirements for the use of
         personal devices.



8                                                                                        REPORT NO. IG-14-015
RESULTS



Conclusion
  NASA faces challenges with implementing a cost-effective and secure mobile computing
  strategy. The Agency needs a comprehensive and accurate inventory to more effectively
  manage its mobile assets. Without such a system, NASA will continue to expend
  significant resources to validate the accuracy of monthly invoices provided by HP. In
  addition, without an accurate inventory the Agency will continue to pay erroneous or
  excessive charges on unused devices.

  In September 2013, the Agency implemented security controls to mitigate risks from
  personal smartphones and tablets connecting to its e-mail infrastructure. In addition,
  NASA initiated work to identify an Agency third-party tool to manage mobile devices.
  While these initiatives are positive steps, NASA remains vulnerable to information
  security risks associated with smartphones and tablets until these new systems are fully
  implemented.

Recommendations, Management’s Response, and Evaluation of
  Management’s Response
  To help improve the management and security of its mobile devices, we made the
  following recommendations to the NASA Chief Information Officer (CIO):

  Recommendation 1. Develop and maintain an accurate inventory of Agency-issued
  mobile devices.

      Management’s Response. The CIO concurred with our recommendation, stating
      that his office is taking action to improve the Configuration Management Data Base
      so that it will more accurately track Agency-issued mobile devices. In addition, he
      indicated that the OCIO has established a project team to identify and address the
      business architecture, systems, and processes associated with management and
      invoicing of mobile devices. The CIO estimated completion of these actions by
      August 30, 2014.

      Evaluation of Management’s Response. Management’s proposed actions are
      responsive to our recommendation. Therefore, we consider the recommendation
      resolved and will close it upon receipt and verification of those actions.

  Recommendation 2. Implement a third-party tool or tools that would enable the Agency
  to centrally manage personally owned smartphones and tablets that connect to NASA
  networks.

      Management’s Response. The CIO concurred with our recommendation, stating
      that his office is implementing an enterprise Mobile Device Management capability
      that will address management of ACES supplied/managed devices, non-ACES
      supplied devices (Government Furnished Equipment), and personally owned



REPORT NO. IG-14-015                                                                         9
                                                                               RESULTS



     equipment (Bring Your Own Devices). The CIO estimated completion of this action
     by February 28, 2015.

     Evaluation of Management’s Response. Management’s proposed action is
     responsive to our recommendation. Therefore, we consider the recommendation
     resolved and will close it upon receipt and verification of the action.




10                                                                REPORT NO. IG-14-015
APPENDIX A




                                                              SCOPE AND METHODOLOGY

  We performed this audit from June through July 2012, and from October 2012 through
  February 2014 in accordance with generally accepted government auditing standards.12
  Those standards require that we plan and perform the audit to obtain sufficient,
  appropriate evidence to provide a reasonable basis for our findings and conclusions based
  on our audit objectives. We believe that the evidence obtained provides a reasonable
  basis for our findings and conclusions based on our audit objectives.

  Our review of controls to manage the security risks did not include laptops because the
  security controls available for laptops are quite different from those available for
  smartphones, tablets, and other mobile device types. Mobile devices with minimal
  computing capability, such as the most basic cell phones, are also out of the scope of the
  security review because of the limited security options available and the limited threats
  they pose. In addition, tablets were limited to those running mobile operating systems
  and did not include laptops in tablet form, such as Microsoft Surface Pro.

  We interviewed NASA Headquarters and Center officials, the Enterprise Service Desk
  Service Manager, NSSC IT Infrastructure Integration Program Business Office officials,
  the Enterprise Service and Integration Division, Service Integration Manager, and ACES
  Subject Matter Experts concerning mobile security, inventory controls, and mobile device
  ordering and receiving process. We reviewed the ACES contract to obtain an
  understanding of the pricing and services for mobile devices. We analyzed the monthly
  Agency Cellular Seat Detail Reports for June through December 2013 for devices that
  were unused for the 7-month period.

  Federal Laws, Regulations, Policies, and Guidance. We reviewed the following in the
  course of our audit work:

            Executive Order 13589, “Promoting Efficient Spending,” November 2011
            National Institute of Standards and Technology Special Publication 800-124,
             Revision 1, “Guidelines for Managing the Security of Mobile Devices in the
             Enterprise,” June 2013
            NASA Procedural Requirements 1382.1.A, “NASA Privacy Procedural,” August
             10, 2007




  12
       The audit was temporarily suspended from August 1, 2012, through October 29, 2012, to complete other
       audit priorities.



REPORT NO. IG-14-015                                                                                          11
                                                                                         APPENDIX A



           NASA Procedural Requirements 2810.1A, “Security of Information Technology
            (Revalidated with Change 1, dated May 19, 2011),” May 16, 2006
           NASA Technical Standard NASA-STD-2805P, “Minimum Hardware
            Configuration,” amended April 8, 2013
           NASA IT Security Handbook ITS-HBK-2810.15-01A, “Access Control,”
            September 4, 2012
           Memorandum from the NASA Chief Information Officer, “Minimum Security
            Requirements for Personal Mobile Devices,” August 27, 2013
           GAO/AIMD-00-21.3.1, “Standards for Internal Control in the Federal
            Government,” November 1999

     Use of Computer-Processed Data. We used computer-processed data from the NASA
     Property System to perform this audit. We obtained data from the system as of June 5,
     2013, to identify the number of government-owned smartphones and tablets. We also
     used computer-processed data from HP Enterprises Service and ACES Portal. We found
     this data to be unreliable; specifically, the data was not complete, accurate, or consistent.
     As a result, we were unable to quantify potential costs savings in our findings or
     conclusions.

Review of Internal Controls

     We reviewed internal controls related to the oversight of ACES devices and security of
     smartphones and tablets connecting to NASA’s e-mail systems. This included
     determining whether NASA has policies and procedures in place specific to personal
     devices.

Prior Coverage

     During the last 5 years, the NASA OIG and the Government Accountability Office
     (GAO) have issued four reports of particular relevance to the subject of this report.
     Unrestricted reports can be accessed over the Internet at
     http://oig.nasa.gov/audits/reports/FY14/index (NASA OIG) and http://www.gao.gov
     (GAO).

     NASA Office of Inspector General

     “NASA’s Information Technology Governance” (IG-13-015, June 5, 2013)

     “NASA's Efforts to Encrypt its Laptop Computers” (Memorandum to the Administrator,
     December 17, 2012)




12                                                                            REPORT NO. IG-14-015
APPENDIX A



  Government Accountability Office

  “Information Security: Better Implementation of Controls for Mobile Devices Should Be
  Encouraged” (GAO-12-757, September 18, 2012)

  “Information Security: NASA Needs to Remedy Vulnerabilities in Key Networks” (GAO-
  10-3SU, October 15, 2009)




REPORT NO. IG-14-015                                                                      13
                       APPENDIX B




     MANAGEMENT COMMENTS




14            REPORT NO. IG-14-015
APPENDIX B




REPORT NO. IG-14-015   15
                                                                              APPENDIX C




                                                        REPORT DISTRIBUTION



National Aeronautics and Space Administration

     Administrator
     Associate Administrator
     Chief of Staff
     Chief Information Officer
     Chief Scientist

Non-NASA Organizations and Individuals

     Office of Management and Budget
        Deputy Associate Director, Energy and Science Division
            Branch Chief, Science and Space Programs Branch
     Government Accountability Office
        Director, Office of Acquisition and Sourcing Management

Congressional Committees and Subcommittees, Chairman and
  Ranking Member

     Senate Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     Senate Committee on Commerce, Science, and Transportation
        Subcommittee on Science and Space
     Senate Committee on Homeland Security and Governmental Affairs
     House Committee on Appropriations
        Subcommittee on Commerce, Justice, Science, and Related Agencies
     House Committee on Oversight and Government Reform
        Subcommittee on Government Operations
     House Committee on Science, Space, and Technology
        Subcommittee on Oversight
        Subcommittee on Space




16                                                                   REPORT NO. IG-14-015
Major Contributors to the Report:
   Wen Song, Director, Information Technology Directorate
   Mindy Vuong, Project Manager
   Deirdre Beal, Auditor
   Howard Kwok, Auditor
   Christopher Reeves, Information Technology Specialist




REPORT NO. IG-14-015                                        17
                                                                              FEBRUARY 27, 2014
                                                                   REPORT No. IG-14-015




                                                                            OFFICE OF AUDITS

                                                            OFFICE OF INSPECTOR GENERAL




ADDITIONAL COPIES
Visit http://oig.nasa.gov/audits/reports/FY14/ to obtain additional copies of this report, or contact the
Assistant Inspector General for Audits at 202-358-1232.

COMMENTS ON THIS REPORT
In order to help us improve the quality of our products, if you wish to comment on the quality or
usefulness of this report, please send your comments to Mr. Laurence Hawkins, Audit Operations and
Quality Assurance Director, at Laurence.B.Hawkins@nasa.gov or call 202-358-1543.

SUGGESTIONS FOR FUTURE AUDITS
To suggest ideas for or to request future audits, contact the Assistant Inspector General for Audits.
Ideas and requests can also be mailed to:
      Assistant Inspector General for Audits
      NASA Headquarters
      Washington, DC 20546-0001

NASA HOTLINE
To report fraud, waste, abuse, or mismanagement, contact the NASA OIG Hotline at 800-424-9183 or
800-535-8134 (TDD). You may also write to the NASA Inspector General, P.O. Box 23089, L’Enfant
Plaza Station, Washington, DC 20026, or use http://oig.nasa.gov/hotline.html#form. The identity of
each writer and caller can be kept confidential, upon request, to the extent permitted by law.
